                            SOCIAL SECURITY
                            Office of the Inspector General

                                      April 22, 2011


The Honorable Xavier Becerra
Ranking Member, Subcommittee on
 Social Security
Committee on Ways and Means
House of Representatives
Washington, D.C. 20515

Dear Mr. Becerra:

On April 15, 2010, at a Social Security Subcommittee oversight hearing on Social
Security Administration (SSA) field office service delivery, you asked my office to review
the Internet claim (iClaim) application. Specifically, you expressed concern about
whether individuals filing for benefits using the iClaim application were receiving an
appropriate level of service from SSA. To address this concern, we initiated four
reviews of the iClaim application. Specifically, these reviews evaluated the iClaim
application process and obtained individuals’ perceptions of the iClaim application
process for both Retirement and Disability Insurance Benefits.

Enclosed is the report for the second of our four reviews. This review presents our
examination of the iClaim application process for Retirement Insurance Benefits. I
appreciate the opportunity to share our insights on this important matter. To ensure
SSA is aware of the information provided to your office, we are forwarding a copy of this
report to the Agency.

If you have any questions concerning this matter, please call me or have your staff
contact Misha Kelly, Congressional and Intra-Governmental Liaison, at (202) 358-6319.

                                         Sincerely,




                                         Patrick P. O’Carroll, Jr.
                                         Inspector General
Enclosure

cc:
Michael J. Astrue

             SOCIAL SECURITY ADMINISTRATION       BALTIMORE, MD 21235-0001
CONGRESSIONAL RESPONSE
       REPORT

   Internet Claim Applications
 for Retirement Insurance Benefits
          A-07-10-20165




            April 2011
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o nfid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d a b us e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le info rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f Ins p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d p rop o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a ge n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o pe ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e nc o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                                                            Background
OBJECTIVE
The objective of our review was to evaluate the Internet claim (iClaim) application
process for Retirement Insurance Benefits (RIB).

BACKGROUND
In response to customer requests for more Internet services and the requirements of the
Government Paperwork Elimination Act of 1998, 1 the Social Security Administration
(SSA) allows individuals to complete and electronically sign an online application for
certain Title II Social Security benefits. 2 Specifically, individuals can use the Internet to
file for RIB, aged spouse's benefits, and Disability Insurance benefits. 3 In
December 2008, SSA implemented the iClaim application, which modified prior versions
of the Internet application. 4

After an individual submits an iClaim application, it is sent to a nearby field office (FO) or
Immediate Claims Taking Unit (ICTU). 5 At the FO or ICTU, an SSA employee verifies
the application is valid 6 and resolves discrepancies between data in SSA systems and
information entered on the iClaim application. 7 After reviewing the application, the
employee may need to re-contact the individual to obtain additional information or
develop other issues.8

In Fiscal Year (FY) 2010, SSA received approximately 2.5 million RIB applications, with
approximately 920,000 (37 percent) received via iClaim. SSA’s goal is to have
50 percent of RIB applications submitted using the iClaim application by FY 2012.

1
    Pub. L. No. 105-277, 112 Stat. 2681-749.
2
    SSA, POMS, GN 00204.055 A.
3
    SSA, POMS, GN 00204.055 B.
4
    SSA, Teleservice Center Operating Guide, TC 31507.010 A.
5
  There are 1,297 FOs and 15 ICTUs nationwide. ICTUs assist FOs in processing RIB iClaim and
telephone applications.
6
 Among other requirements, for an application to be valid, the individual must be alive when the
application is filed unless before death there was a written statement of intent to claim benefits. SSA,
POMS, GN 00204.001 C.1.
7
 A common discrepancy is the individual’s name. For example, a name that changed after marriage may
not have been reported to SSA or an individual may enter a middle name rather than the first name.
8
  SSA, POMS, GN 00204.055 G.7. Examples of other issues requiring development include, but are not
limited to, allegation of disability and possible eligibility for Supplemental Security Income or Medicare.


Internet Claim Applications for Retirement Insurance Benefits (A-07-10-20165)                                 1
At an April 15, 2010 hearing before the House of Representatives’ Committee on Ways
and Means, Subcommittee on Social Security, Congressman Xavier Becerra asked the
Office of the Inspector General (OIG) to review the iClaim application to ensure
individuals filing for benefits using the iClaim application were receiving an appropriate
level of service from SSA.

To address Congressman Becerra’s request, we selected a random sample of 250 RIB
iClaim applications filed in May 2010. 9 We surveyed the SSA employees who
processed the RIB iClaim applications to determine the number of times the Agency
had to re-contact individuals for additional information or clarification and the reasons
for the re-contacts. We also obtained the employees’ perceptions of the iClaim
application process. Finally, we reviewed 50 of the RIB iClaim applications from our
sample to determine whether the information provided by the individuals in their iClaim
applications corresponded with the information recorded in SSA’s system that was used
to determine individuals’ eligibility for benefits and their benefit amounts.




9
    See Appendix B for a detailed discussion of the scope and methodology of our review.


Internet Claim Applications for Retirement Insurance Benefits (A-07-10-20165)                2
                                                         Results of Review
To process some iClaim applications, SSA must re-contact individuals to obtain
additional information or clarification regarding their iClaim applications. The majority of
individuals in our review was re-contacted by an SSA employee after filing an iClaim
application. The most common reasons employees re-contacted individuals were to
discuss the month they wanted to begin receiving benefits and address inconsistencies
in their earnings records.

SSA employees were generally positive regarding the amount of time it took to process
an iClaim application. However, employees expressed concerns about the difficulty in
re-contacting individuals.

In addition, we found that the information provided by individuals in their iClaim
applications corresponded with the information recorded in SSA’s system. The
information in SSA’s system was used to determine individuals’ eligibility for benefits
and their benefit amounts.

REASONS FOR RE-CONTACT
Re-contacts with individuals are a necessary and important part of processing some
iClaim applications. In fact, of the 245 individuals in our review who filed a RIB iClaim
application, SSA re-contacted 144 individuals (59 percent) to obtain additional
information or clarification. 10 SSA employees re-contacted individuals predominantly for
two issues (see Table 1). Specifically,

•    64 individuals (44 percent) were re-contacted regarding the month they chose to
     begin receiving benefits; that is, their month of election (MOEL) and

•    52 individuals (36 percent) were re-contacted regarding inconsistencies in their
     earnings records.




10
   Although we selected a sample of 250 RIB iClaim applications for review, 5 employees did not respond
to our request to review the iClaim applications for 5 individuals.


Internet Claim Applications for Retirement Insurance Benefits (A-07-10-20165)                         3
                            Table 1: Issues Causing Re-contact 11
                                         Number of      Percent of iClaims with
                         12
     Re-contact Issue                   iClaims with          Re-contact
                                         Re-contact (Of 144 iClaims with Re-contact)
     MOEL                                    64                   44%
     Earnings Records                        52                   36%
     Auxiliaries                             40                   28%
     Work Issues                             36                   25%
     Documentation                           27                   19%
     Military                                16                   11%
     Windfall Elimination Provision/
                                             13                   9%
     Government Pension Offset
     Incomplete Information                   9                   6%
     Supplemental Security
                                              8                   6%
     Income, Medicare, Medicaid
     Other Issues                             8                   6%
     Disability Allegation                    6                   4%

We did not determine whether the agency made all necessary re-contacts with the
individuals in our review. However, our review did provide evidence that SSA was
following up with individuals to obtain additional information or clarification regarding the
iClaim application.

Month of Election

As previously stated, SSA employees re-contacted 64 individuals in our sample
regarding the month they chose to begin receiving benefits. Further, of the
64 individuals re-contacted regarding MOEL, 42 (66 percent) changed their MOEL after
being re-contacted. The predominant reasons individuals were re-contacted follow.

•    Individuals did not fully understand the effect working would have on their benefits if
     they were under full retirement age (FRA). 13 For example, one individual in our
     sample selected an MOEL of May 2010, a month when he was still working. An
     SSA employee re-contacted and told him he would not receive a payment in


11
  The numbers do not equal 144 and the percentages do not total 100 because some iClaim applications
required re-contact for more than 1 issue.
12
 See Appendix C for a description of each issue and enhancements to the iClaim process provided by
SSA employees that address some of these issues.
13
   Individuals may begin receiving RIB as early as age 62. SSA, POMS, RS 00201.001 A. However,
individuals who elect to receive benefits before their FRA will receive reduced benefits. SSA, POMS,
RS 00201.002 A. Furthermore, before reaching FRA, individuals are limited in the amount of earnings
they are allowed to receive before a reduction in benefits applies. If individuals have earnings above the
limit, their benefits will be further reduced or eliminated altogether. SSA, POMS, GN 00204.039 C.2.a.
Individuals above FRA do not have an earnings limitation. SSA, POMS, RS 02501.021 B.5.a.


Internet Claim Applications for Retirement Insurance Benefits (A-07-10-20165)                                4
     May 2010. Therefore, the individual changed his MOEL to June 2010. By changing
     from May to June 2010, he received a higher monthly benefit payment.

•    Individuals did not know they were eligible for retroactive benefits when they were
     over FRA. 14 For example, one individual in our sample selected an MOEL of
     June 2010, the month the individual filed for RIB. However, the individual reached
     FRA in April 2008. Therefore, the individual was eligible for retroactive benefits from
     November 2009, which was 6 months before the individual filed for RIB. An SSA
     employee re-contacted the individual, who changed his MOEL to November 2009.
     Although the individual received a lower monthly benefit payment by selecting
     November 2009, he received 7 months of retroactive benefits that he would not have
     received had he selected June 2010.

•    Individuals believed SSA needed additional time to process the claim. For example,
     one individual in our sample who filed on May 14 selected an MOEL of June 2010
     because he thought it was too late in the month to select May 2010 as his MOEL.
     An SSA employee re-contacted the individual to inform him that SSA did not need
     additional time to process the claim, and the individual changed his MOEL to
     May 2010. Although the individual received a lower monthly benefit payment by
     selecting May 2010, he received an additional payment that he would not have
     received had he selected June 2010.

•    Individuals thought they needed to be FRA for the entire month to receive full
     benefits. For example, one individual in our sample selected an MOEL of
     September 2010 and stated he wanted to begin receiving benefits at FRA.
     However, the individual reached FRA in August 2010. An SSA employee
     re-contacted the individual, who changed his MOEL to August 2010. Although the
     individual received a lower monthly benefit payment by selecting August 2010, he
     received an additional payment that he would not have received had he selected
     September 2010.

Inconsistencies in Earnings Records

As we noted earlier, SSA employees re-contacted 52 individuals regarding
inconsistencies in their earnings records. Examples of inconsistencies in earnings
records include

•    1 or 2 years with zero wages posted from an employer when wages were posted in
     the prior and subsequent years from the same employer,

•    a year or years with multiple postings from one employer, and



14
  When an individual files for RIB in a month after reaching FRA, the individual is eligible to receive
retroactive benefits back to the month of FRA, but no more than 6 months before filing. SSA, POMS,
GN 00204.030 B.1.


Internet Claim Applications for Retirement Insurance Benefits (A-07-10-20165)                             5
•     a year with the same earnings posted from two different employers.

SSA employees are notified of an inconsistency in an individual’s earnings record
through an earnings alert query (EARQ), which is automatically generated by SSA’s
system. When an EARQ is generated for an individual or the individual indicates on the
iClaim application that he or she either disagrees with his or her Social Security
Statement or does not have a Social Security Statement, SSA must re-contact the
individual. 15

In August and December 2010, SSA updated its system to reduce the number of
earnings records inconsistencies that cause EARQs. As a result, SSA estimates the
policy changes have decreased EARQs by 40 percent. Therefore, re-contacts related
to EARQs should be declining.

To further reduce the number of re-contacts regarding EARQs, SSA employees
suggested enhancing the iClaim application to include questions that would cause
individuals to address the earnings record inconsistencies that cause EARQs. For
example, individuals with 1 year of multiple postings from one employer on their records
would be asked to explain the multiple postings. Therefore, the individuals could
resolve the EARQs while completing the iClaim application and would not have to be
re-contacted by SSA. SSA staff stated that the Agency is unable to disclose individual
records, including earnings information, to iClaim users because the iClaim application
does not contain a high enough level of authentication. However, SSA is working on
enhanced levels of authentication. 16

EMPLOYEE PERCEPTIONS OF INTERNET CLAIM APPLICATIONS
While SSA employees had both positive and negative comments about the iClaim
application, employees were generally positive about the amount of time it took to
process an iClaim application. 17 For example, one employee stated, “I am very pleased
with the RIB iClaim application process. It has greatly reduced the amount of time it
takes to process a[n] RIB claim.” In fact, most employees responded iClaim
applications were faster to process than in-person or telephone applications.
Specifically, 62 percent of employees in our review stated iClaim applications were
typically the fastest application type to process. 18 Furthermore, 54 percent of
employees responded an iClaim application with re-contact takes an average of
15
     SSA, POMS, GN 00204.055 I; RS 01404.100 B.1.b.

16
  We are conducting a review of The Social Security Administration’s eAuthentication Process
(A-14-11-11115).

17
  We obtained the perceptions of 220 SSA employees regarding the RIB iClaim application process.
These 220 employees reviewed the 245 RIB iClaim applications in our sample.
18
   Of the 220 employees in our review, 168 employees processed in-person and/or telephone applications
in addition to iClaim applications. Of the 168 employees, 62 percent stated iClaim applications were the
fastest application type to process.


Internet Claim Applications for Retirement Insurance Benefits (A-07-10-20165)                         6
20 minutes or less to process (see Table 2). In contrast, 67 percent of employees
responded an in-person application takes more than 20 minutes, on average, to
process.

     Table 2: SSA Employees’ Estimates of RIB Application Processing Times
                                    Percent of Employees
        Minutes    iClaims Without iClaims with   Telephone      In-person
                                19            20             21
                     Re-contact    Re-contact    Application    Application 22
     1-20                89%           54%           49%            33%
     21-40               11%           37%           44%            57%
     More than 40         0%            9%           7%             10%

Although iClaim applications generally take the least amount of time to process,
employees were concerned about the difficulty with re-contacting individuals. To fully
develop the claim, we found employees had to re-contact individuals in our sample up
to five times, for an average of two times per individual. This included at least
1 unsuccessful re-contact attempt for 54 percent of the 144 iClaim applications with a
re-contact in our sample. 23 In fact, employees stated it can take days or weeks to have
a successful re-contact. Furthermore, SSA employees stated individuals are often
unavailable because they typically only provide a home telephone number but are not
home during daytime hours. For example, one employee stated,

       My main complaint is that [individuals] are almost impossible to reach for
       re-contacts. They indicate on their application the best time to call. For example,
       they will select 9:00 AM [to] noon as the best time to call. But our office opens at
       9:00, so I’m always away from my desk…taking claims. I usually try to reach
       them earlier, sometime between 7:30 AM and 8:45 AM, but they often do not
       answer, [so] I leave a voicemail. They call me back, [but] I’m not at my desk.

While time-consuming, re-contacts are sometimes a necessary part of the iClaim
application process. Therefore, SSA’s ability to limit the number of re-contacts is a
challenge. However, SSA employees provided us with suggestions that may limit the
number of re-contacts for some iClaim applications. For example, employees
suggested that the Agency enhance the iClaim application to accept multiple telephone

19
  These responses were from 213 employees. The remaining seven employees responded that all
iClaim applications required at least one re-contact.
20
  These responses were from 219 employees. The remaining employee chose not respond when asked
about the amount of time to process an iClaim application with re-contact.
21
  These responses were from 166 employees. The remaining 54 employees did not process telephone
applications.
22
  These responses were from 116 employees. The remaining 104 employees did not process in-person
applications.
23
   We defined an unsuccessful re-contact attempt as occurring when the individual does not answer the
telephone or the employee must leave a message for the individual.


Internet Claim Applications for Retirement Insurance Benefits (A-07-10-20165)                           7
numbers, such as a cellular telephone number, since it only provides space for an
individual to leave one telephone number. In addition, employees suggested adding
wording to the iClaim application informing individuals that SSA might contact them in
the very near future to clarify issues necessary to process the claim. SSA stated it will
consider these enhancements in the future, but it has no current plans to implement
them. 24

VERIFICATION OF INTERNET APPLICATIONS
As an individual completes an iClaim application, the information is stored in SSA’s
Internet Database. Once the iClaim application is complete, an SSA employee
establishes a claim in SSA’s Modernized Claims System (MCS), 25 and the information
from the Internet Database is automatically entered into MCS. 26 If the SSA employee
determines changes to the individual’s application are needed based on re-contact with
the individual, the employee will make those changes in MCS. The information in MCS
is used to determine whether the individual is eligible for benefits and, if so, the benefit
amount.

We reviewed 50 of the RIB iClaim applications from our sample and found the
information provided by individuals in their iClaim applications corresponded with the
information recorded in SSA’s system.

In addition, SSA’s Office of Quality Performance (OQP) conducts biannual reviews to
measure the compliance of FOs and Payment Service Centers with SSA’s policies. As
part of the review, OQP redevelops claims to determine whether SSA’s standards were
met. For the first half of FY 2010, OQP found that the accuracy rate for claims initiated
over the Internet was almost 99 percent. 27




24
  SSA stated that individuals can list other telephone numbers in the remarks section of the iClaim
application if they so choose.
25
   MCS is also the system employees use to record individuals’ information obtained during in-person and
telephone applications for benefits.
26
     SSA, POMS, GN 00204.055 D.2.
27
     SSA OQP, Transaction Accuracy Review Report, October 2009 – March 2010, p. 3.


Internet Claim Applications for Retirement Insurance Benefits (A-07-10-20165)                          8
                                                                    Conclusions
During our review of RIB iClaim applications, there were no indications that individuals
filing for RIB using the iClaim application did not receive an appropriate level of service
from SSA. In fact, SSA employees re-contacted more than half the individuals in our
sample to obtain additional information or clarification. While employees raised
concerns regarding some difficulty in re-contacting individuals, they also recognized that
iClaim applications were typically faster to process than in-person or telephone
applications. In addition, we found that the information individuals provide on their
iClaim applications corresponded with the information in SSA’s system used to
determine benefit eligibility and amount.




Internet Claim Applications for Retirement Insurance Benefits (A-07-10-20165)             9
                                             Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Issues Causing Re-contact




Internet Claim Applications for Retirement Insurance Benefits (A-07-10-20165)
                                                                            Appendix A

Acronyms
    AET                 Annual Earnings Test
    EARQ                Earnings Alert Query
    FO                  Field Office
    FRA                 Full Retirement Age
    FY                  Fiscal Year
    GPO                 Government Pension Offset
    iClaim              Internet Claim
    ICTU                Immediate Claims Taking Unit
    MCS                 Modernized Claims System
    MET                 Monthly Earnings Test
    MOEL                Month of Election
    OIG                 Office of the Inspector General
    OQP                 Office of Quality Performance
    POMS                Program Operations Manual System
    Pub. L. No.         Public Law Number
    RIB                 Retirement Insurance Benefits
    SSA                 Social Security Administration
    SSI                 Supplemental Security Income
    WEP                 Windfall Elimination Provision




Internet Claim Applications for Retirement Insurance Benefits (A-07-10-20165)
                                                                                   Appendix B

Scope and Methodology
To address Congressman Becerra’s request related to the Internet claim (iClaim)
application process, we:

• Reviewed applicable Federal laws and regulations and sections of the Program
  Operations Manual System related to the iClaim application process.

• Reviewed prior Office of the Inspector General reports related to the Social Security
  Administration’s (SSA) electronic services.

• Reviewed the Office of Quality Performance’s Transaction Accuracy Report.

• Obtained a data extract from SSA of 64,785 Retirement Insurance Benefits (RIB)
  iClaim applications filed in May 2010. 1

• From the data extract, we selected a random sample of 250 RIB iClaim applications. 2
  For each sampled RIB iClaim application, we contacted the SSA employee who
  adjudicated the claim or another employee in the office where the claim was
  adjudicated. 3 We asked each employee:

     o To provide information specific to the application, such as whether the individual
       was re-contacted, why the individual was re-contacted, and the number of
       re-contacts needed to develop the application.
     o To provide information regarding general experiences developing RIB
       applications, such as the average amount of time needed to fully develop an
       iClaim application and other types of applications, the average length of a
       re-contact, and whether there were any enhancements SSA could make to the
       iClaim application to reduce the number of re-contacts.

• From the randomly sampled 250 RIB iClaim applications, we reviewed 50 RIB iClaim
  applications to determine whether the information provided by the individuals in their
  applications corresponded with information in SSA’s Modernized Claims System.
1
  SSA’s Management Information Report for May 2010 reported 67,502 RIB iClaim applications were filed
in May 2010. Therefore, the data extract contained 2,717 applications fewer than SSA identified.
However, we considered this 4-percent difference immaterial.
2
  Although we selected a sample of 250 RIB iClaim applications for review, 5 employees did not respond
to our request to review the iClaim applications for 5 individuals.
3
  If the employee who adjudicated the claim was no longer working for SSA or in the office where the
claim was adjudicated, we sent the sampled iClaim application to another employee in the office or to a
manager in the office for assignment to another employee.


Internet Claim Applications for Retirement Insurance Benefits (A-07-10-20165)                        B-1
• Provided possible enhancements to the iClaim application to SSA to determine
  which, if any, were either feasible to implement into the iClaim application or already
  being implemented in an upcoming version of the iClaim application (see
  Appendix C).

Our work was conducted at the Office of Audit in Kansas City, Missouri, from May 2010
through February 2011. The entity reviewed was the Office of Operations. We
determined that the data used in this review were sufficiently reliable given our objective
and their intended use. We conducted our review in accordance with the Council of
Inspectors General on Integrity and Efficiency’s Quality Standards for Inspection and
Evaluation.




Internet Claim Applications for Retirement Insurance Benefits (A-07-10-20165)          B-2
                                                                                    Appendix C

Issues Causing Re-contact
Of the 245 individuals in our sample of Retirement Insurance Benefits (RIB) Internet
claim (iClaim) applications, 144 individuals (59 percent) were re-contacted. 1 Social
Security Administration (SSA) employees suggested enhancements to improve the
iClaim application process that could result in fewer re-contacts. SSA has few plans to
implement any of these enhancements into the iClaim application.

       Issue Causing
                                 Employee Suggestions                       SSA’s Response
         Re-contact
    Month of Election       When individuals select the month       This information is shown in a
    (MOEL):                 for benefits to start, provide an       “More Info” link in the iClaim
    Employees               explanation that individuals will       application. 3
    re-contacted            receive their first check the month
    individuals regarding   following the month selected.
    MOEL to clarify the     Some individuals believe the
    individual’s MOEL       MOEL they choose is the month
    decision. 2             they will receive their check.
                            Provide information to the              This information is shown in a
                            individuals that unreduced              “More Info” link in the iClaim
                            retirement benefits begin the           application.
                            month they reach full retirement
                            age (FRA).
                            Provide an estimated monthly            SSA is unable to disclose
                            benefit amount after the individual     individual records, including
                            has selected an MOEL.                   earnings information, to iClaim
                                                                    users because the iClaim
                                                                    application does not contain a
                                                                    high enough level of
                                                                    authentication. However, SSA is
                                                                    working on enhanced levels of
                                                                    authentication. SSA does
                                                                    provide a link to the Retirement
                                                                    Estimator page. 4

1
  Although we selected a sample of 250 RIB iClaim applications for review, 5 employees did not respond
to our request to review the iClaim application.
2
    See page 4 for a discussion of MOEL.
3
 “More Info” links are in the iClaim application to assist individuals in responding to questions. For
example, a “More Info” link may provide an individual with information regarding why SSA is asking a
particular question or how an individual’s response will affect his or her benefits.

4
  The Retirement Estimator is an Internet application provided by SSA that produces retirement benefit
estimates based on the user’s actual Social Security record. However, the estimates are based on
retiring at different ages (for example, age 62 as opposed to age 64) rather than retiring in different
months (for example, age 62 and 1 month as opposed to age 62 and 3 months).


Internet Claim Applications for Retirement Insurance Benefits (A-07-10-20165)                            C-1
       Issue Causing
                                  Employee Suggestions                        SSA’s Response
         Re-contact
    Earnings Alert           Allow individuals to answer               SSA is unable to disclose
    Queries (EARQ):          questions based on their EARQs            individual records, including
    Employees                in the iClaim application so the          earnings information, to iClaim
    re-contacted             individual can resolve the EARQ           users because the iClaim
    individuals when an      while completing the application.         application does not contain a
    EARQ appeared on                                                   high enough level of
    the individual’s                                                   authentication. However, SSA is
    record. 5                                                          working on enhanced levels of
                                                                       authentication.
    Auxiliaries:             If an individual lists a child, ask for   SSA’s system cannot accept this
    Employees                the child’s Social Security number,       information. SSA will review this
    re-contacted             date of birth or disability onset         item as a possible future
    individuals regarding    date (for disabled adult children),       enhancement, but SSA has no
    auxiliaries when an      and current address (if not living        plan in place.
    individual listed a      with the individual).
    minor or disabled        If the iClaim application                 SSA will review this item as a
    adult child or alleged   determines a child is eligible for        possible future enhancement,
    a current or former      benefits, direct the individual to set    but SSA has no plan in place.
    marriage that was        up an appointment with an
    not already recorded     employee since children’s claims
    in SSA’s systems.        cannot be filed online.
                             Ask individuals to provide                SSA’s system cannot accept this
                             additional information about              information. SSA will review this
                             former spouses (for example,              item as a possible future
                             addresses, telephone numbers) to          enhancement, but SSA has no
                             assist SSA in locating the former         plan in place.
                             spouses if they are eligible for
                             benefits.
                             For individuals who allege                SSA will review the possibility of
                             marriage, but proof of marriage is        providing a downloadable form
                             not recorded in SSA’s systems,            as a possible future
                             provide a Form SSA-3 (Marriage            enhancement, but SSA has no
                             Certification) in the iClaim              plan in place.
                             application for individuals to
                             complete immediately.




5
    See page 5 for a discussion of EARQs.


Internet Claim Applications for Retirement Insurance Benefits (A-07-10-20165)                           C-2
       Issue Causing
                                 Employee Suggestions                      SSA’s Response
         Re-contact
    Work Issues:            Allow individuals to view their         SSA is unable to disclose
    Employees               Social Security Statements in the       individual records, including
    re-contacted            iClaim application. If an individual    earnings information to iClaim
    individuals if the      disagrees with his or her Social        users because the iClaim
    individual was          Security Statement, ask the             application does not contain a
    subject to the          individual to provide the dates and     high enough level of
    Annual Earnings         explanations of any discrepancies.      authentication. However, SSA is
    Test (AET) or                                                   working on enhanced levels of
    Monthly Earnings                                                authentication.
    Test (MET) or if the    If an individual enters earnings        SSA is unable to disclose
    individual did not      above the AET/MET threshold,            individual records, including
    agree with or have      alert the individual that he or she     earnings information to iClaim
    his or her Social       will not receive a benefit payment      users because the iClaim
    Security Statement. 6   for the months earnings are above       application does not contain a
                            the threshold.                          high enough level of
                                                                    authentication. However, SSA is
                                                                    working on enhanced levels of
                                                                    authentication.

                                                                    SSA will request that additional
                                                                    information be added to the
                                                                    “More Info” link in the iClaim
                                                                    application as a future
                                                                    enhancement.
                            Ask individuals below FRA the           SSA provides a list of available
                            specific date they plan to stop         MOEL options based on the
                            working. This will assist SSA           individual’s age and responses
                            employees in understanding the          to questions in the iClaim
                            MOEL selected by the individual         application. If the individual
                            and whether the individual is           does not select a month on the
                            eligible for benefits for that month.   list, he or she must give a
                                                                    reason as to why they chose a
                                                                    different month.
                            If the individual is a corporate        SSA’s system cannot accept this
                            officer or self-employed and below      information. SSA will review the
                            FRA, provide a Form SSA-4184            possibility of providing a
                            (Self-Employment/Corporate              downloadable form as a
                            Office Questionnaire) in the iClaim     possible future enhancement,
                            application for individuals to          but SSA has no plan in place.
                            complete immediately.
                            Clarify “net income from self           SSA will review this item as a
                            employment” for individuals who         possible future enhancement,
                            have claimed self-employment.           but SSA has no plan in place.

6
 The AET and MET apply to individuals who retire before FRA. The AET is used to measure whether
any deduction needs to be made from the retired beneficiary’s monthly benefits based on earnings. The
MET is used to determine whether payments are allowed to a beneficiary even if the beneficiary had
substantial earnings before the month of entitlement and will continue working after the month of
entitlement. SSA, POMS, RS 02501.021.


Internet Claim Applications for Retirement Insurance Benefits (A-07-10-20165)                        C-3
    Issue Causing
                             Employee Suggestions                    SSA’s Response
      Re-contact
 Windfall               Provide a downloadable Form           SSA will review the possibility of
 Elimination            CMS-L564 (Request for                 providing a downloadable form
 Provision              Employment Information) for           as a possible future
 (WEP)/Government       individuals who allege enrollment     enhancement, but SSA has no
 Pension Offset         in an employer group health plan.     plan in place.
 (GPO): Employees       Ask for the pension dates,            This enhancement is planned for
 re-contacted           amounts, and names of annuities       an upcoming version of the
 individuals if they    for individuals who fall under        iClaim application. The release
 indicated receiving    WEP/GPO.                              date is yet to be determined.
 or anticipated
 receiving a non-
 covered pension.

Employees did not provide specific enhancements to address the following issues that
caused re-contacts for RIB iClaim applications.

• Documentation: Employees re-contacted individuals if they did not provide
  documents requested by SSA at the end of the iClaim application.

• Military: Employees re-contacted individuals if they reported military service before
  1968.

• Incomplete Information: Employees re-contacted individuals if there was
  incomplete information on the iClaim application.

• Supplemental Security Income (SSI), Medicare, Medicaid: Employees
  predominately re-contacted individuals if they requested to file for SSI.

• Disability Allegations: Employees re-contacted individuals when they alleged
  disability.




Internet Claim Applications for Retirement Insurance Benefits (A-07-10-20165)                C-4
                                 DISTRIBUTION SCHEDULE


Commissioner of Social Security

Chairman and Ranking Member, Committee on Ways and Means

Chief of Staff, Committee on Ways and Means

Chairman and Ranking Minority Member, Subcommittee on Social Security

Majority and Minority Staff Director, Subcommittee on Social Security

Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives

Chairman and Ranking Minority Member, Committee on Oversight and Government Reform

Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives

Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives

Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate

Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate

Chairman and Ranking Minority Member, Committee on Finance

Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions and
Family Policy

Chairman and Ranking Minority Member, Senate Special Committee on Aging

Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
